                 

                 

                    U.S. ENVIRONMENTAL PROTECTION AGENCY 

                    OFFICE OF INSPECTOR GENERAL 
                 

                 



                    EPA’s Office of
                    Environmental Information
                    Should Improve Ariel Rios
                    and Potomac Yard
                    Computer Room Security
                    Controls
                    Report No. 12-P-0879               September 26, 2012




Scan this code to
learn more about
the EPA OIG.
Report Contributors:	                              Rudolph M. Brevard
                                                   Michael Goode
                                                   Sabrena Stewart




Abbreviations

EPA           U.S. Environmental Protection Agency
IT            Information technology
OEI           Office of Environmental Information
OIG           Office of Inspector General
NIST          National Institute of Standards and Technology
SP            Special Publication




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                              12-P-0879
                                                                                                    September 26, 2012
                        Office of Inspector General


                        At a Glance
Why We Did This Review              EPA’s Office of Environmental Information
The U.S. Environmental              Should Improve Ariel Rios and Potomac Yard
Protection Agency (EPA) Office      Computer Room Security Controls
of Inspector General (OIG)
conducted this audit to assess
the security posture and             What We Found
in-place environmental controls
of the computer rooms in the        The security posture and in-place environmental control review of the computer
EPA Ariel Rios and Potomac          rooms in the Ariel Rios and Potomac Yard buildings revealed numerous security
Yard buildings in Washington,       and environmental control deficiencies. These control deficiencies greatly reduce
DC, and Arlington, Virginia,        the ability of the Office of Environmental Information (OEI) to safeguard critical
respectively. This audit was        information technology assets and associated data from the risk of damage
conducted in support of the         and/or loss.
audit of EPA’s directory service
system authentication and            Recommendations/Planned Agency Corrective Actions
authorization servers.
                                    We recommended in our draft report that OEI remediate physical and
                                    environmental control deficiencies. Following the issuance of the draft report, OEI
This report addresses the           provided a corrective action plan with milestone dates to address agreed-upon
following EPA Goal or               recommendations. In its response, OEI agreed with recommendations 1 and 2,
Cross-Cutting Strategy:             and stated that it had completed corrective actions for recommendation 1. OEI
                                    did not agree with recommendations 3 and 4 because it asserts that the Office of
 Strengthening EPA’s               Administration and Resources Management bears responsibility for remediation
  workforce and capabilities.       for these recommendations. For recommendation 5, OEI did not agree because it
                                    stated that it is already monitoring environmental variable information which
                                    would alert it to the presence of a computer room water leakage. During the
                                    audit, the OIG requested policies and procedures that address limiting water
                                    damage to IT assets. OEI did not provide any documentation in response to this
                                    request and the OIG concluded that such policies did not exist.

                                    We consider recommendation 1 closed with agreed-upon corrective actions
                                    complete. Recommendation 2 is open with agreed-upon corrective actions
                                    pending. The OIG believes that OEI bears the responsibility for addressing
                                    recommendations 3, 4, and 5 because it is responsible for managing IT assets in
                                    the Ariel Rios and Potomac Yard computer rooms. We consider
For further information, contact
our Office of Congressional and     recommendations 3, 4, and 5 unresolved with resolution efforts in progress.
Public Affairs at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2012/
20120926-12-P-0879.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                       September 26, 2012

MEMORANDUM

SUBJECT:	 EPA’s Office of Environmental Information Should Improve Ariel Rios and
          Potomac Yard Computer Room Security Controls
          Report No. 12-P-0879


FROM:	         Arthur A. Elkins, Jr.

TO:	           Vaughn Noga
               Director, Office of Technology Operations and Planning
               Office of Environmental Information


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

The Office of Environmental Information (OEI) agreed with recommendations 1and 2 and
provided corrective action plans. OEI did not agree with recommendations 3, 4, and 5. These
recommendations remain unresolved with resolution efforts in progress. Therefore, in
accordance with EPA Manual 2750, you are required to provide a written response to this report
within 90 calendar days. You should include a corrective action plan for recommendations 3, 4,
and 5, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. We have no objections to the further release of this report to the
public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Rudolph M. Brevard,
Director, Information Resources Management Assessments, at (202) 566-0893 or
brevard.rudy@epa.gov; or Michael Goode, Project Manager, at (202) 566-0354 or
goode.michael@epa.gov.
 EPA’s Office of Environmental Information                                                                                     12-P-0879
Should Improve Ariel Rios and Potomac Yard
Computer Room Security Controls


                                      Table of Contents 

   Purpose........................................................................................................................     1


   Background .................................................................................................................        1


   Scope and Methodology.............................................................................................                  1


   Findings .......................................................................................................................    1


           Lack of Monitoring, Oversight, and Procedures Increases Risk of 

              Unauthorized Computer Room Access ...........................................................                            2

           Uninterruptible Power Supply Lacks Ability to Automatically 

              Shut Down Critical IT Assets ...........................................................................                 3

           Lack of Key Environmental Controls Increases Risk of 

              Water Damage to Critical IT Assets ................................................................                      3


   Recommendations ......................................................................................................              4


   Agency Comments and OIG Evaluation ...................................................................                              5


   Status of Recommendations and Potential Monetary Benefits..............................                                             6




Appendices
   A       Agency Response to Draft Report....................................................................                         7


   B       Distribution .........................................................................................................     11

Purpose
            The U.S. Environmental Protection Agency (EPA) Office of Inspector General
            (OIG) conducted this audit to assess the security posture and in-place
            environmental controls of EPA’s Office of Environmental Information (OEI)
            Ariel Rios computer room in Washington, DC, and Potomac Yard computer room
            in Arlington, Virginia. This audit was conducted in support of the audit of EPA’s
            directory service system authentication and authorization servers

Background

             OEI supports the Agency’s mission to protect public health and the environment
             by integrating quality environmental information to make it useful for informing
             decisions, improving management, documenting performance, and measuring
             success. The Ariel Rios and Potomac Yard computer rooms house information
             technology (IT) assets that are used for Agency user authentication and
             authorization, Internet connectivity, and data storage.

Scope and Methodology
             We performed this audit from January 2011 through May 2012 in accordance
             with generally accepted government auditing standards. Those standards require
             that we plan and perform the audit to obtain sufficient and appropriate evidence
             to provide a reasonable basis for our findings and conclusions based on our audit
             objectives. We believe that the evidence obtained provides a reasonable basis for
             our findings and conclusions based on our audit objectives.

             We conducted the on-site review of the computer room security posture and in-
             place environmental controls at the Ariel Rios and Potomac Yard computer
             rooms in Washington, DC, and Arlington, Virginia, respectively, in April 2011.
             The criteria used for the review were derived from the National Institute of
             Standards and Technology (NIST) Special Publication (SP) 800-53,
             Recommended Security Controls for Federal Information Systems and
             Organizations, “Physical and Environmental Protection Security” control family.
             We evaluated the computer rooms through inquiry, observation, and review of
             documentation.

             We had no prior report recommendations for follow up during this audit for
             these two specific sites.

Findings
            The Ariel Rios and Potomac Yard computer room control deficiencies greatly
            reduce the ability of OEI to safeguard critical IT assets and associated data from
            the risk of unauthorized access, damage, and/or loss. In particular, physical access
            controls were not in place to monitor access to critical IT assets, and the server


12-P-0879                                                                                    1
            room lacked environmental controls to protect these assets from potential loss or
            damage due to power outages and water leaks. NIST prescribes the selection and
            implementation of appropriate security controls for an information system, which
            represent the management, operational, and technical safeguards or
            countermeasures employed to protect the confidentiality, integrity, and
            availability of the system and its information. If OEI does not correct identified
            weaknesses, it faces potential disruption of its operations.

            Lack of Monitoring, Oversight, and Procedures Increases Risk of
            Unauthorized Computer Room Access

            The OIG was unable to determine if OEI has any policies and procedures in place
            to ensure that computer room access is only granted to authorized employees. The
            OIG was also unable to determine if OEI maintains a listing of employees
            authorized to access the computer room. OEI indicated that they randomly review
            the authorized employee access list, but the OIG was not provided with any
            documentation to support that assertion. OEI's Ariel Rios and Potomac Yard
            computer room visitor logs had not been used or reviewed. This lack of computer
            room access controls increases the risk that unauthorized individuals may gain
            entry into the computer room and damage critical IT assets.

            NIST SP 800-53 states that an organization must do the following:

                  Develop, disseminate, and review/update a formal, documented
                   physical and environmental protection policy that addresses
                   purpose, scope, roles, responsibilities, management commitment,
                   coordination among organizational entities, and compliance
                  Develop and keep current a list of personnel with authorized access
                   to the facility where the information system resides
                  Review and approve the access list and authorization credentials,
                   removing from the access list personnel no longer requiring access
                  Maintain visitor access records to the facility where the
                   information system resides
                  Review visitor access records


            OEI must establish physical access policies and procedures to ensure that access
            to facilities containing critical IT assets is documented and regularly reviewed by
            management. OEI must also utilize and review visitor access logs for computer
            rooms. These steps are essential to mitigating the risk of damage to critical IT
            assets.




12-P-0879                                                                                    2
            Uninterruptible Power Supply Lacks Ability to Automatically Shut
            Down Critical IT Assets

            In emergency situations, OEI has only a limited ability to shut down the Ariel
            Rios and Potomac Yard computer room IT assets in an orderly fashion. The
            possibility of an orderly shutdown is hindered by the following conditions:

                  Lack of generator to provide emergency power
                  Lack of around-the-clock staff presence in computer rooms
                  Short duration of existing uninterruptible power supply to provide
                   backup power
                  Lack of uninterruptible power supply capable of automatically
                   shutting down IT assets

            NIST SP 800-53 states that an organization should provide a short-term
            uninterruptible power supply to facilitate an orderly shutdown of the information
            system in the event of a primary power source loss.

            In the Potomac Yard computer room, authorized personnel have only 1 hour and
            30 minutes from the time power is lost to get to the computer room and manually
            shut down the IT equipment; in the Ariel Rios computer room, we were told that
            the length of time is only 3 minutes. These short periods during which backup
            power is available, combined with the lack of dedicated around-the-clock staff
            manning the computer rooms and the lack of an emergency generator and
            automatic shutdown capabilities, increase the likelihood that personnel will not be
            able to perform an orderly shutdown of IT assets in the event of a power loss.

            Lack of Key Environmental Controls Increases Risk of Water Damage
            to Critical IT Assets

            Ariel Rios and Potomac Yard computer room IT assets are at risk of damage due
            to accidental water leakage. Server cabinets containing the IT assets are located
            directly under the computer rooms’ overhead sprinklers, and the fire suppression
            systems within the rooms are fully charged. Fully charged fire suppression
            systems maintain water pressure at all times. These pipes could leak, especially at
            points where the sprinkler heads connect to the water pipes. The computer rooms
            also did not have compensating controls, such as leak shields, to protect these
            assets from potential water damage.

            Where there is a fully charged fire suppression system, the risk of water damage
            from leaks may be mitigated by not placing IT assets directly under sprinkler
            heads or pipes when possible. When it is not possible to relocate IT assets to areas
            not directly under sprinkler heads and pipes, other compensating controls such as
            leak shields attached to or above the cabinets should be utilized.




12-P-0879                                                                                    3
            The Ariel Rios and Potomac Yard computer rooms also did not have formal
            procedures related to monitoring for water leaks in the computer room or for
            actions to be taken in the event of a water leak. In addition, the Ariel Rios and
            Potomac Yard computer rooms did not have master shutoff valves for the water
            pipes running through the computer rooms or water detectors on the floor of the
            computer rooms to alert personnel and permit them to take timely action in the
            case of a water leak.

            The U.S. Government Accountability Office Federal Information System
            Controls Audit Manual specifies that environmental controls exist to help ensure
            that building plumbing lines do not endanger the computer facility or, at a
            minimum, that shutoff valves and procedures exist and are known. NIST SP
            800-53 stipulates that an organization should protect information systems from
            damage resulting from water leakage by providing master shutoff valves that are
            accessible, working properly, and known to key personnel.

Recommendations
            We recommend that the Director, Office of Technology and Operations Planning,
            Office of Environmental Information:

               1.		 Develop and implement computer room policies and procedures that
                    ensure that computer room access is only grant to authorized employees
                    and that visitor access is approved, documented, and reviewed.

               2.		 Acquire and implement an uninterruptible power supply that will
                    automatically perform an orderly shutdown of IT assets without manual
                    intervention in the event of a long-term loss of power.

               3.		 Move the server racks so that they are not directly under sprinkler heads or
                    water pipes, or, if that is not possible, install leak shields on or above the
                    server racks directly under sprinkler heads or water pipes.

               4.		 Install a master shutoff valve for the water pipes that flow through the
                    computer room.

               5.		 Develop and implement policies and procedures that address limiting
                    water damages to IT assets in the computer room that include:

                       a.		 24 hours/day, 7 days/week monitoring
                       b.		 Timely actions to be taken in the event of a water leak in the
                            computer room




12-P-0879                                                                                      4
Agency Comments and OIG Evaluation

            Following the issuance of the draft report, OEI provided a corrective action plan
            with milestone dates to address agreed-upon recommendations. In its response,
            OEI agreed with recommendations 1 and 2, but did not agree with
            recommendations 3, 4, and 5. OEI did not agree with recommendations 3 and 4
            because it asserts that the Office of Administration and Resources Management
            bears responsibility for remediation for these recommendations. For
            recommendation 5, OEI did not agree because it stated that it is already
            monitoring environmental variable information which would alert it to the
            presence of a computer room water leakage. OEI also stated that it has completed
            corrective actions for recommendation 1.

            We consider recommendation 1 closed with agreed-upon corrective actions
            complete. Recommendation 2 is open with agreed-upon corrective actions
            pending. The OIG believes that OEI bears the responsibility for recommendations
            3 and 4 because it is responsible for managing IT assets in the Ariel Rios and
            Potomac Yard computer rooms. Therefore, OEI needs to ensure that corrective
            actions are carried out for recommendations 3 and 4. During the audit, the OIG
            requested any policies and procedures that address limiting water damage to IT
            assets. OEI did not provide any documentation for this request and the OIG
            concluded that such policies did not exist. Therefore, recommendation 5 was
            made to OEI. We consider recommendations 3, 4, and 5 unresolved with
            resolution efforts in progress.




12-P-0879                                                                                  5
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                               POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed-To
    No.      No.                          Subject                          Status1        Action Official            Date      Amount      Amount

     1        4     Develop and implement computer room policies             C            Director, Office of
                    and procedures that ensure that computer room                    Technology and Operations
                    access is only grant to authorized employees and                     Planning, Office of
                    that visitor access is approved, documented, and                  Environmental Information
                    reviewed.

     2        4     Acquire and implement an uninterruptible power           O            Director, Office of
                    supply that will automatically perform an orderly                Technology and Operations
                    shutdown of IT assets without manual intervention                    Planning, Office of
                    in the event of a long-term loss of power.                        Environmental Information

     3        4     Move the server racks so that they are not directly      U            Director, Office of
                    under sprinkler heads or water pipes, or, if that is             Technology and Operations
                    not possible, install leak shields on or above the                   Planning, Office of
                    server racks directly under sprinkler heads or                    Environmental Information
                    water pipes.

     4        4     Install a master shutoff valve for the water pipes       U            Director, Office of
                    that flow through the computer room.                             Technology and Operations
                                                                                         Planning, Office of
                                                                                      Environmental Information

     5        4     Develop and implement policies and procedures            U            Director, Office of
                    that address limiting water damages to IT assets in              Technology and Operations
                    the computer room that include:                                      Planning, Office of
                                                                                      Environmental Information
                      a. 24 hours/day, 7 days/week monitoring
                      b. Timely actions to be taken in the event of a
                         water leak in the computer room




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-P-0879                                                                                                                                         6
                                                                                     Appendix A

                   Agency Response to Draft Report

                                      June 29, 2012

MEMORANDUM


SUBJECT:	 Follow-on Responses to Audit: EPA’s Office of Environmental Information
          Should Improve Ariel Rios and Potomac Yard Computer Room Security Controls,
          Report Project No. OMS-FY11-0007

FROM: 	        Maja Lee
               Acting Director, Enterprise Desktop Solutions Division
               Office of Technology Operations and Planning

THRU: 	        Vaughn Noga,
               Director, Office of Technology Operations and Planning and
               Chief Technology Officer

TO: 	          Rudolph M. Brevard
               Director, Information Resources Management Assessments
               Office of the Inspector General


The purpose of this memorandum is to provide a response to the subject draft report and provide
additional clarification regarding the Office of Environmental Information’s (OEI) security
controls at the Ariel Rios and Potomac Yard Server Room facilities.

OEI appreciates the OIG’s desire to ensure EPA has adequate security controls in place.
Attached is a detailed response to the draft report and a Corrective Action Plan for the actions
which the Office of Technology Operations and Planning (OTOP) has the lead.

If you have any questions regarding this response, please contact me at 202-566-0300.

Attachments

Cc: 	   Anne Mangiafico
        Maja Lee




12-P-0879                                                                                          7
                              Office of Environmental Information 

                                     Corrective Action Plan 

                                          As of 07/11/12


Auditing Group: OIG              Audit Title: Draft Report – EPA’s Office of Environemtnal
Audit No.: OMS-FY11-0007         Information Should Improve Ariel Rios and Potomac Yard
                                 Computer Rooms Security Controls
Report Date: May 31, 2012        OEI Lead and Phone: James Freeman 703-305-8186
OEI Lead Office: OTOP/EDSD

Recommendation          OIG Revised       Corrective        Planned         Status / Actions
                      Recommendations      Action          Completion           Taken
                                                              Date
1. Develop and                          Completed                        Memorandum title:
implement                               Policies and                     Request for Access to
computer room                           procedures are                   Secure Areas (Data
policies and                            currently in                     Center/LAN closet)
procedures that                         place to ensure                  creation date June
ensure that                             that computer                    8,2011
computer room                           room access is
access is only                          only granted to
granted to                              employees with
employees with                          authorization
authorization and                       and that visitor
that visitor access                     access is
is approved,                            approved,
documented, and                         documented
reviewed.                               and reviewed.


2. Acquire and                          Concur As part Dec. 31,          POAM’s will be
implement an                            of the Federal   2012            created in ASSERT to
uninterruptible                         Government’s                     track the installation
power supply that                       data                             of the new power
will automatically                      consolidation                    source for Potomac
perform an                              initiative, the                  Yard and the Federal
orderly shutdown                        Ariel Rios                       Government data
of IT assets                            computer room                    center consolidation
without manual                          will be closed                   initiative that will
intervention in the                     and the servers                  affect computer
event of a long-                        migrated to                      rooms at EPA
term loss of                            Potomac Yard.                    headquarters.
power.                                  Efforts are
                                        underway with
                                        GSA to install a
                                        backup
                                        generator at the


 12-P-0879                                                                                     8
Recommendation            OIG Revised       Corrective       Planned     Status / Actions
                        Recommendations      Action         Completion       Taken
                                                               Date
                                          Potomac Yard
                                          facility. The
                                          generator will
                                          provide 24/7
                                          backup power
                                          to the computer
                                          room and in the
                                          event of a
                                          prolonged
                                          power outage,
                                          sufficient
                                          notification
                                          would enable
                                          an orderly
                                          shutdown of IT
                                          assets.

3 Move the server                         Non-Concur
racks so that they                        As part of the
are not directly                          Federal
under sprinkler                           Government’s
heads or water                            data
pipes, or, if that is                     consolidation
not possible,                             initiative, the
install leak shields                      Ariel Rios
on or above the                           computer room
server racks                              will be closed
directly under                            and the servers
sprinkler heads or                        migrated to
water pipes.                              Potomac Yard.
                                          Water damage
                                          cannot be
                                          avoided if the
                                          sprinkler
                                          system is
                                          activated and
                                          operates per
                                          specifications
                                          (i.e. sprays
                                          water).

                                          Refer to
                                          OARM -



 12-P-0879                                                                                  9
Recommendation          OIG Revised       Corrective        Planned       Status / Actions
                      Recommendations      Action          Completion         Taken
                                                              Date
                                        OARM is
                                        responsible for
                                        the facility and
                                        water
                                        sprinklers.

4. Install a master                     Non-Concur
shutoff valve for                       Refer to
the water pipes                         OARM -
that flow through                       OARM is
the computer                            responsible for
room.                                   the facility,
                                        water pipes and
                                        shut off valves.


5. Develop and                          Non-Concur                      EPA monitors
implement                               Monitoring of                   environmental
policies and                            environmental                   variable information
procedures that                         variable                        through HP Openview
address limiting                        information                     with e-mail and text
water damages to                        such as water,                  message notifications
IT assets in the                        fire,                           to personnel in order
computer room                           temperature,                    to address any
that include a) 24                      humidity,                       reported issues.
hours/day, 7                            power, and
days/week                               smoke is part of
monitoring; and                         the current
(2) timely actions                      standard
to be taken in the                      procedures, is
event of a water                        monitored 24/7
leak in the                             and issues are
computer room.                          reported to an
                                        identified group
                                        by text message
                                        and email.




 12-P-0879                                                                                   10
                                                                                Appendix B

                                    Distribution

Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Principal Deputy Assistant Administrator for Environmental Information
        and Senior Information Official
Director, Office of Technology Operations and Planning, Office of Environmental Information
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Senior Agency Information Security Officer, Office of Environmental Information
Audit Follow-Up Coordinator, Office of Environmental Information




12-P-0879                                                                                 11
